XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013

Public: (213) 269-6000
Telephone: (213) 269-6073
Facsimile: (916) 731-2122
E-Mail: Scott.Taryle@doj.ca.gov

December 16, 2020
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Deondre Staten v. Ronald Davis, Warden
Case No. 20-6210
Request for Extension of Time

Dear Mr. Harris:
This office represents respondent Ronald Davis in the above-captioned case. The petition
for a writ of certiorari was filed on October 27, 2020. Respondent has received one 31-day
extension of time for the brief in opposition, currently due January 4, 2021. Pursuant to Rule
30.4, respondent respectfully requests one more 30-day extension of time to February 3, 2021, to
file that brief.
The additional time is required because the lead reviewer for the brief in opposition,
California Solicitor General Michael James Mongan, must also complete work on pressing
matters in Trump v. Sierra Club, et al., No 20-138, Cedar Point Nursery v. Hassid, No 20-107,
and Lange v. California, No 20-18. Counsel for petitioner have stated that they would not
oppose this extension request.
Accordingly, I request that the due date for the brief in opposition to the petition for a
writ of certiorari be extended to February 3, 2021.
Sincerely,

For

cc: Norman James, Esq.
Jerry Newton, Esq.

/s/ Scott A. Taryle
SCOTT A. TARYLE
Supervising Deputy Attorney General
XAVIER BECERRA
Attorney General

